IN THE SUPREME COURT OF THE UNITED STATES

STARKS, LARRY E.
Petitioner
vs.

No:

20-5622

UNITED STATES COURT OF APPEALS FOR THE
CENTRAL DISTRICT OF ILLINOIS
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
September 14, 2020
cc:
LARRY E. STARKS
#17008-026
ASHLAND CORRECTIONAL FEDERAL
INSTITUTE
PO BOX 6001
ASHLAND, KY 41105

